*•1.'

»

V

APPENDIX
A-l

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

TUNG HYUN CHO; et al.,

FILED
APR 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 18-16719

P iaintiffs-Appell ants,

D.C. No. 2:17-cv-01073-CKD

v.

MEMORANDUM*
SELECT PORTFOLIO SERVICING, INC.;
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Carolyn K. Delaney, Magistrate Judge, Presiding**
Submitted April 7, 2020***
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Jung Hyun Cho, Kvu Hwang Cho, Eun Sook Cho, and Eui Hyun Cho appeal
pro se from the district court’s judgment dismissing their action al leging federal

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
♦*

The parties consented to proceed before a magistrate judge. See 28
U.S.C. § 636(c).
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

and state law claims arising out of completed foreclosure proceedings. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo a district court’s
dismissal under Federal Rule of Civil Procedure 12(b)(6). Cervantes v.
Countrywide Home Loans, Inc., 656 F.3d 1034, 1040 (9th Cir. 2011). We may
affirm on any ground supported by the record. Gordon v. Viriumundo, Inc., 575
F.3d 1040, 1047 (9th Cir. 2009). We affirm.
The district court properly dismissed Jung Hyun Clio’s False Claims Act
(“FCA”) claim because Clio did not bring this action on behalf of the United States
government. See 31 U.S.C. § 3730(b) (a private citizen can bring an action under
the FCA, but only “in the name of the Government”); Cafasso, U.S. ex rel. v. Gen.
Dynamics C4 Svs., Inc., 637 F.3d 1047, 1055-56 (9th Cir. 2011) (elements of a
FCA claim and explaining the nature of a “reverse false claim”).
The district court properly dismissed Jung Hyun Clio’s Racketeer Influenced
and Corrupt Organizations Act (“RICO”) claim because Cho failed to allege facts
sufficient to show a pattern of racketeering activity required to state a claim for
violations of, or conspiracy to violate, RICO. See Sanford v. MemberWorks, Inc.,
625 F.3d 550, 557, 559 (9th Cir. 2010) (listing elements of a RICO claim under 18
U.S.C. § 1962(c) and explaining that to plead a RICO conspiracy claim under
§ 1962(d), the plaintiff must first adequately plead a substantive violation of
RICO).

2

18-16719

Dismissal of Jung Hyun Clio’s Home Affordable Modification Program
(“HAMP”) claim was proper on the ground of issue preclusion because this issue
was already litigated and resolved in a prior state court action. See Cooler.
Hardings 879 F.3d 1035, 1.04-42 (9th Cir. 2018) (elements of issue preclusion
under California law).
The district court properly dismissed plaintiffs’ claims under the Fair
Housing Act (“FHA”) because plaintiffs failed to allege facts sufficient to state a
plausible claim for relief. See Hebbe v. Pliler, 627 F.3d 338, 341-42 (9th Cir.
2010) (although pro se pleadings are construed liberally, plaintiff must present
factual allegations sufficient to state a plausible claim for relief); Harris v. Ilzhaki,
183 F.3d 1043, 1051 (9th Cir. 1999) (elements of a FHA claim).
The district court properly dismissed Jung Hyun Cho’s state law fraud claim
arising from the denial of his loan modification application because Cho failed to
allege facts sufficient to state a plausible claim for relief. See Lazar v. Superior
Court 909 P.2d 981, 984-85, 988 (Cal. 1996) (setting forth elements of promissory
fraud and explaining that one of the essential elements of the claim is detrimental
reliance on a false representation); see also Hebbe, 627 F.3d at 341-42.
The district court properly dismissed all claims other than the FHA claim
brought by plaintiffs Kyu Hwang Cho. Eun Soolc Cho, and Eui Hyun Cho for lack
of standing because they were not signatories to the loans at issue. See Lopez v.

o

IS-I6719

Candaele, 630 F.3d 775, 785 (9th Cir. 2010) (elements of Article III standing);
Schmierv. U.S. Court ofAppeals for Ninth Circuit, 279 F.3d 817, 824 (9th Cir.
2002) (dismissal with prejudice on standing was appropriate because appellant
“could not have possibly amended his complaint to allege an. [Article III] injury in
fact”).
The district court properly dismissed any claims against Solano County for
lack of jurisdiction under the Tax Injunction Act, See 28 U.S.C. § 1341 (“The
district courts shall not enjoin, suspend or restrain the assessment, levy or
collection of any tax under State law where a plain, speedy and efficient remedy
may be had in the courts of such State.”).
The district court did not abuse its discretion by denying leave to amend
because amendment would have been futile. See Leadsinger, Inc. v. BMG Music
Publ’g, 512 F.3d 522, 532 (9th Cir. 2008) (setting forth standard of review and
explaining that futility is a basis for denying leave to amend).
We reject as meritless plaintiffs5 contentions that the district court exhibited
hostility towards them and did not consider their motions to amend.
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright. 587 F.3d 983, 985 n.2 (9th Cir. 2009).
All pending motions and requests are denied.

4

18-16719

This case has been administratively closed as to appellee WMC Mortgage
LLC. See Docket Entry No. 81. We therefore do not reach plaintiffs’ contentions
regarding dismissal of their claims against WMC Mortgage LLC.
AFFIRMED.

5

18-16719

!i

Case 2:17-cv-01073-CKD Document 161 Filed 08/09/18 Page 1 of 2

r
i
1
2
3
4

APPENDIX
A-2

5

6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11
12

JUNG HYUN CHO; KYU HWANG CHO;
EUN SOOK CHO; and EUI HYUN CHO,
Plaintiffs,

13
14
15

16
17
18
19

No. 2:17-cv-01073-KJM-CKD

ORDER
v.
SELECT PORTFOLIO SERVICING,
INC.; DEUTSCHE BANK NATIONAL
TRUST COMPANY; BANK OF
AMERICA, N.A.; SOLANO COUNTY
TAX ASSESSOR; RONALD LEE; JUAN
GOMEZ; THE WOLF FIRM, a Law
Corporation; and WMC MORTGAGE
LLC,
Defendants.

20

21

Each of the parties named in the above-captioned case has filed a “Consent to Proceed

22

Before a United States Magistrate Judge.” See 28 U.S.C. §636(a)(5) and (c); see also ECF Nos.

23

7-10 (consent of plaintiffs), 15 (consent of defendant The Wolf Firm), 18 (defendant Solano Tax

24

Assessor), 20 (defendant Bank of America, N.A.), 46 (defendant WMC Mortgage LLC), 64

25

(defendants Select Portfolio Servicing, Inc. and Deutsche Bank National Trust Company), 158

26

(defendant Juan Gomez), and 159 (defendant Ronald Lee). In contrast with die court’s previous

27

order addressing consents and a possible referral to the magistrate judge, all named parties,

28

including defendant Ronald Lee, have filed a “Consent to Proceed Before a United States
1

Case 2:17-cv-01073-CKD Document 161 Filed 08/09/18 Page 2 of 2
t

l

1 II Magistrate Judge.” See ECF No. 82 (previous order declining to refer this matter to the
2

magistrate judge under 28 U.S.C. § 636(c)). A newly named defendant in plaintiffs’ second

3

amended complaint, Juan Gomez, also has consented to proceed before a magistrate judge. See

4

ECF Nos. 103 (second amended complaint), 158 (defendant Juan Gomez’s consent).

5

According to Local Rule 305(b), both the district court judge assigned to the case and the

6 | magistrate judge must approve the reference to the magistrate judge.
7

The undersigned has reviewed the file herein and recommends that the above-captioned

8

case be referred to the magistrate judge for all further proceedings and entry of final judgment.

9

IT IS HEREBY ORDERED that the Clerk of the Court refer this case to the Honorable

10 | Carolyn K. Delaney. All currently scheduled dates presently set before Judge Mueller are hereby
11
12

VACATED.
IT IS SO ORDERED.

13 II DATED: August 6, 2018.
14
15

£

16
17
18

Having also reviewed the file, I accept reference of this case for all further proceedings

19 | and entry of final judgment.
20

Dated: August 9, 2018

If.

21
22

CAROLYN K. DELANEY
*
UNITED STATES MAGISTRATE JUDGE

23
24

25
26
27
28
2

i]

Case 2:17-cv-01073-CKD Document 163 Filed 08/14/18 Page 1 of 1

/

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
JUNG HYUN CHO- PREFILING ORDER,
ET AL.,
CASE NO: 2:17-CV-01073-CKD

v.
SELECT PORTFOLIO SERVICING, INC.,
ETAL.,

XX

Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 8/14/2018

Marianne Matherly
Clerk of Court
ENTERED: August 14,2018

by: /s/ I„ Reader

Deputy Clerk

■♦A ' *2
~v

1
2
3
4

APPENDIX
A-3

5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

JUNG HYUN CHO, et al„

12
13
14
15
16

No. 2:17-cv-01073-KJM-CRD

Plaintiffs,
v.

ORDER

SELECT PORTFOLIO SERVICING,
INC., etal.,
Defendants.

17
On September 6, 2017, the magistrate judge filed findings and recommendations (ECF

18
No. 84), which were served on the parties and which contained notice that any objections to the

19
findings and recommendations were to be filed within fourteen (14) days. On September 29,

20
2017, plaintiff filed objections to the findings and recommendations (ECF No. 87), which have

21
been considered by the court. Plaintiffs have also filed two motions to amend, since the

22
magistrate judge filed findings and recommendations, which have also been considered by the

23
court. (ECF Nos. 85. 87.)

24
In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C) and Local Rule 304, this

25
court has conducted a de novo review of this case. Having reviewed the file, the court finds the

26
findings and recommendations to be supported by the record and by the proper analysis. The

27
court ADOPTS the findings and recommendations, with one modification: The court DECLINES

28
1

V
.»

1

to dismiss all claims without leave to amend and instead GRANTS limited leave to amend, as

2

defined below. The strong policy in favor of granting leave to amend is particularly important

3

where, as here, plaintiffs are proceeding pro se on their- first complaint and have specifically

4

moved for leave to amend. Fed. R. Civ. P. 15(a); Lopez v. Smith, 203 F.3d 1.122, 1130 (9th Cir.

5-

2000) (court must construe a pro se pleading liberally, tell a plaintiff of deficiencies in his

6

complaint and give him leave to cure them if at all possible).

7

Accordingly, IT IS HEREBY ORDERED as follows:

8

1.

9

The findings and recommendations (ECF No. 84) are ADOPTED, but with limited
leave to amend.

10

2,

Defendants' motions to dismiss (ECF Nos. 17,19,>23, 30, 32) are GRANTED.

11

Only one defendant, Ronald Lee, has not moved to dismiss. Nonetheless, the

12

conclusions listed below result in no claims remaining against him.

13

3.

14

Plaintiffs’ complaint (ECF No. 1) is DISMISSED:
a. Dismissal is with prejudice as to claims 2-6 and 8-13 to extent they are

15

brought by plaintiffs Kyu Hwang Cho, Eun Sook Cho, and Eui Hyun Cho,

16

because they are not borrowers on the mortgage and so have no standing to

17

bring claims based on it;

18

b. Dismissal is with prejudice as to all claims brought under the False Claims

19

Act or the Home Affordable Modification Program because neither statute

20

provides plaintiffs a private right of action;

21

c. Dismissal is with leave to amend as to all remaining claims. Any

22

amendment shall be filed within fourteen days of this order.

23

4.

Plaintiffs' motion for judgment on die pleadings (ECF No. 43), motion to strike

24

(ECF No. 44), motion for preliminary injunction (ECF No. 47), and motion for

25

reconsideration of order and order to show cause (ECF No. 79) are DENIED AS

26

MOOT.

27

/////

28

/////
2

/K,"

J-

3

5.

Plaintiffs’ motions for leave to amend (ECF No. 85, 87) are granted IN PART as

2
3

IT IS SO ORDERED

4

This resolves ECF No. 84.

5
<*

explained in 3(a) and (b) above.

DATED: January 16, 2018.
Z'

6
7

8

UNITEDjl
I

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
3

■ES DISTRICT JUDGE

servicing, me. et al Order Adopting Findings and Recommendations. Content-Type: text/htmi
This' ism automatic e-mail message gemmed by the CMJECP system. Phase DO NOT RESPOND to thise-mtd Became tne mail box is unattended.
....NOTE 10 PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of California - Live System
Notice of Electronic Filing
The following transaction was entered on 1/17/2018 at 3:42 PM PST'and filed on 1/17/2018
Case Name:
(PS) Cho et al v. Select Portfolio Servicing, Inc. et al
Case Number:
2:17—cv—01073-K.IM-rKT)
Filer:
Document Number: 91
Docket Text:
^signed by District Judge Kimberly J. Mueller on 1/16/2018 ADOPTING [84] Findings
and Recommendations but with limited leave to amend. GRANTING [171. [191, [301, [231, [321
Motion to Dismiss Only one defendant, Ronald Lee, has not moved to dismiss. Nonetheless,
the conclusions listed below result in no claims remaining against him. DISMISSING [11
Complaint: Dismissal is with prejudice as to claims 2-6 and 8—13 to extent they are brouqht
py plaintiffs Kyu Hwang Cho, Eun Sook Cho, and Eui Hyun Cho, because they are not
sorrowers on the mortgage and so have no standing to bring claims based on it; Dismissal
is with prejudice as to all claims brought under the False Claims Act or the Home Affordable
Modification Program because neither statute provides plaintiffs a private right of action;
Dismissal is with leave to amend as to all remaining claims. Any amendment shall be filed
within 14 days of this order. [43] Motion for Judgment, [44] Motion to Strike, [47] Motion for
Preliminary Injunction. [79] Motion for Reconsideration and order to show cause are ail
DENIED and MOOT. GRANTING in PART [85], [87] Motion to Amend the Complaint as
explained.(Washington, S)
2:17—cv-01073—KJM-CKD Notice has been electronically mailed to:
Christine E. Howson &nbsp &nbsp christme.howson@wolffimi.com, abigail.hemandez@wolffimi.com,
iryna.brown@wolfllrm.com, marla.fortner@wolffirm.com, may.herrera@wolffh-m.com
Jamie Lauren Ackerman &nbsp &nbsp Jamie@JLAckermanlaw.com
Joel C. Spann &nbsp &nbsp jcs@severson.com, efiling@severson.com, mam@severson.com
Joseph A. Aguilar &nbsp &nbsp jaguilar@archernorris.com, aalter@archemoxris.com,
ebarham@archcmorris.com, jriley@archemorris.com
Nicholas R. Shepard &nbsp &nbsp nshepard@matlienysears.com, nicholas.shepard@gniail.com
Raymond Bangle , III &nbsp &nbsp rbangle@mathenysears.com, aperusse@mathenysears.com
2:17-cv-01073-KJM-CKD Electronically filed documents must be served conventionally by the filer
to:
Eui I-Iyun Cho
4384 Burgess Dr.
Sacramento, CA 95838-4901
Eun Sook Cho

4384 Burgess Dr.

*«>•

Jungl-Iyun Cho- PREPILING ORDER
4384 Burgess Dr
Sacramento, CA 95838-4901
Kyu Hwang Cho
4384 Burgess Dr,
Sacramento, CA 95838-4901
The following document(s) are associated with this transaction:

, tr

Case 2:17-cv-01073-CKD Document 161 Filed 08/09/18 Page 1 of 2
1
2
3
4

APPENDIX
A-2

5

6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11
12

JUNG HYUN CHO; KYU HWANG CHO;
EUN SOOK CHO; and EUI HYUN CHO,
Plaintiffs,

13
14
15
16
17
18
19

No. 2:17-cv-01073-KJM-CKD

ORDER
v.
SELECT PORTFOLIO SERVICING,
INC.; DEUTSCHE BANK NATIONAL
TRUST COMPANY; BANK OF
AMERICA, N.A.; SOLANO COUNTY
TAX ASSESSOR; RONALD LEE; JUAN
GOMEZ; THE WOLF FIRM, a Law
Corporation; and WMC MORTGAGE
LLC,
Defendants.

20

21

Each of the parties named in the above-captioned case has filed a “Consent to Proceed

22

Before a United States Magistrate Judge.” See 28 U.S.C. §636(a)(5) and (c); see also ECF Nos.

23

7-10 (consent of plaintiffs), 15 (consent of defendant The Wolf Firm), 18 (defendant Solano Tax

24

Assessor), 20 (defendant Bank of America, N.A.), 46 (defendant WMC Mortgage LLC), 64

25

(defendants Select Portfolio Servicing, Inc. and Deutsche Bank National Trust Company), 158

26

(defendant Juan Gomez), and 159 (defendant Ronald Lee). In contrast with die court’s previous

27

order addressing consents and a possible referral to the magistrate judge, all named parties,

28

including defendant Ronald Lee, have filed a “Consent to Proceed Before a United States
1

Case 2:17-cv-01073-CKD Document 161 Filed 08/09/18 Page 2 of 2
A."*1 o
1

Magistrate Judge.” See ECF No. 82 (previous order declining to refer this matter to the

2 I! magistrate judge under 28 U.S.C. § 636(c)). A newly named defendant in plaintiffs’ second
3

amended complaint, Juan Gomez, also has consented to proceed before a magistrate judge. See

4

ECF Nos. 103 (second amended complaint), 158 (defendant Juan Gomez’s consent).

5

According to Local Rule 305(b), both the district court judge assigned to the case and the

6 || magistrate judge must approve the reference to the magistrate judge.
7

The undersigned has reviewed the file herein and recommends that the above-captioned

8

case be referred to the magistrate judge for all further proceedings and entry of final judgment.

9

IT IS HEREBY ORDERED that the Clerk of the Court refer this case to the Honorable

10 II Carolyn K. Delaney. All currently scheduled dates presently set before Judge Mueller are hereby
11
12

VACATED.
IT IS SO ORDERED.

13 II DATED: August 6,2018.
14
15
16
17
18

Having also reviewed the file, I accept reference of this case for all further proceedings

19 II and entry of final judgment.
20

Dated: August 9, 2018

it- 'Odji—^

21
22

CAROLYN K. DELANEY
•
UNITED STATES MAGISTRATE JUDGE

23
24
25
26
27
28
2

Case 2:17-cv-01073-CKD Document 163 Filed 08/14/18 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
JUNG HYUN CHO- PREFILING ORDER,
ET AL.,
CASE NO: 2:17-CV-01073-CKD

v.
SELECT PORTFOLIO SERVICING, INC.,
ETAL.,

XX

Decision by the Court This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 8/14/2018

Marianne Matherly
Clerk of Court
ENTERED: August 14,2018

bv: /s/ T. Rp.aHp.f

Deputy Clerk

1

APPENDIX
A-4

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

JUNG HYUNCHO,etal.,

12

Plaintiff,

13
14
15

v.

No. 2:17~c v-01073-KJM-CKD (PS)

FINDINGS AND RECOMMENDATIONS

SELECT PORTFOLIO SERVICING,
INC., etal.,
Defendant.

16
17

Plaintiffs, who proceed pro se, commenced this action on May 22, 2017, alleging various

18
19

claims related to two mortgages obtained in 2004 and subsequent foreclosure proceedings.1 (ECF

20

No. 1.) Defendants have filed numerous motions to dismiss and motions for more definite

21

statement. (ECF Nos. 17,19, 22, 23, 30, 32.) Plaintiffs have since filed numerous other motions.

22

(ECF Nos. 43, 44, 47, 79.) These motions came on regularly for hearing on August 23, 2017 at

23

10:00 am. (ECF No 80.) Present at the hearing were pro se plaintiffs Jung Hyun Cho, Kyu

24

Hwang Cho, and Eun Sook Cho; plaintiff Eui Hyun Cho did not appear*. Present for defendants

25

were Raymond Bangle for Solano County Tax Assessor (“Solano County'5’) and Joe Aguilar for

26

i

27
28

While all appearing parties have consented to the jurisdiction of the United States Magistrate
Judge (see ECF Nos. 7-10, 15, 18, 20, 46, 64), defendant Ronald Lee, who has been served, has
neither appeared nor consented. Thus, the undersigned proceeds pursuant to Local Rules
302(c)(21) and 304. (See ECF No. 82.)
1

1

Select Portfolio Servicing. Inc. (“SPS”) and Deutsche Bank National Trust Com
pany

2

(‘Deutsche”). Appealing telephonies!]y for defendants were Joel Spann for Bank of America
(“BOA”), Jamie Ackerman for WMC Mortgage LLC (“WMC”), and Christine Howson for The

4

Wolf Firm. Upon review of the documents in support and opposition, upon hearing the

5

arguments of counsel, and good cause appealing therefor, THE COURT FINDS AS FOLLOWS:

6

I.

7

BACKGROUND
On September 14, 2004, plaintiff Jung Hyun Cho obtained two loans from WMC for

8

$472,000 and $1.18,000, to acquire the property located at 681 Tuscany Court, Fairfield,

9

California 94534.2 (ECF No. 33 at 5-21, 23-33.) Notices of Default were recorded on

10

September 11, 2009 (ECF No. 24 at 23-25), March 21, 2012 (ECF No. 24 at 29-32), and August

11

28, 2014 (ECF Nos, 24 at 36-39). On October 31, 2016, Deutsche purchased the property at 681

12

Tuscany Court through a trustee’s sale. (See ECF Nos. 24 at 41-M2; 33 at 43-45.)

33

Deutsche subsequently filed an action for unlawful detainer against the Chos on April 6,

14

2017 in state court, based upon their- failure to vacate the property after allegedly receiving a 90

15

day Notice to Quit. (Solano Cty. Super. Ct. FCM154163, Complaint.) On July 5, 2017, the Chos

16

attempted to remove the case to federal court. (E.D. Cal.) 2:17-cv-01357-MCE-DB, Notice of

17

Removal. However, United States District Judge Morrison C. England, Jr. remanded the matter

1.8

to Solano County Superior Court for lack of federal, subject matter jurisdiction. Id., Order dated

19
20
21

■ hi ruling on a motion to dismiss pursuant to Rule 12(b), tire court “may generally consider only
allegations contained in the pleadings, exhibits attached to the complaint, and matters properly
subject to judicial notice.” Outdoor Media Group. Inc, v. City of Beaumont. 506 F.3d 895, 899
22
(9th Cir. 2007). “The court may judicially notice a fact that is not subject to reasonable dispute
I because it: (1) is generally known within tire trial court’s territorial jurisdiction; or (2) can be
23 1 accurately and readily determined from sources whose accuracy cannot reasonably be
| questioned.” Fed. R. Evid. 201(b).

24 1
25
26
27
2o

Defendants BOA and WMC have requested judicial notice of certain documents related to
the mortgages at issue in this case. (See ECF Nos. 24, 33.) At fire same time, defendants SPS
and Deutsche have requested judicial notice of the August 3, 2017 order granting summary
judgment in Solano County Superior Court. (See ECF No. 56.) These requests are granted
because each document is “accuratety and readily determined from sources whose accuracy
cannot reasonably be questioned,” because each was either recorded in the official records for the
County of Solano or is part of a verified state court action. Fed. R. Evid. 201(b).
2
!

1

July 11, 2017. After remand, on August 3, 2017, the Solano County Superior Court granted

2

summary judgment in favor of Deutsche and against the Chos. (ECF No. 56-1.)

3

Plaintiffs filed the complaint before this court on May 22, 2017. (ECF No. 1.) Liberally

4

construed, plaintiffs complaint appears to raise the following claims against defendants: (1)

5

violation of plaintiffs’ civil rights against discrimination in housing and unreasonable searches

6

and seizures; (2) violation of the Racketeering Influenced and Corruption Organizations Act

7

(“RICO1'); (3) violation of the Home Affordable Modification Program (“HAMP”); (4) violations

8

of the False Claims Act (FCA); (5) violation of California Civil Code § 2923.7; (6) wrongful

9

foreclosure; (7) improperly assessing properly tax; (8) unfair- business practices; (9) breach of

10

contract, (10) breach of fiduciary duty; (11) fraud; (12) undue influence; (13) negligence; (14)

1.1

negligent infliction of emotional distress; (15) intentional infliction of emotional distress; (16)

12

invasion of privacy; (17) vandalism/theft; and (18) trespass. (See Id. at 4-20.)

13

By June 23, 2017, each defendant, except for Ronald Lee, had filed a motion to dismiss.

14

(See ECF Nos. 17, 19, 23, 30, 32.) BOA had also filed a separate motion for a more definite

15

statement. (ECF No. 22.) Plaintiffs subsequently filed a motion for judgment on the pleadings

16

(ECF No. 43), a motion to strike (ECF No. 44), and a motion for preliminary injunction (ECF No.

17

47). Defendants filed various oppositions. (See ECF Nos. 52, 53, 54, 55, 57, 58, 59, 60.) Each of

18

these motions was set for hearing on August 23, 2017 at 10:00 am.

19

Meanwhile, on August 11, 2017, plaintiffs filed a motion for emergency temporary

20

restraining order and preliminary injunction, to prevent defendants from enforcing the August 3,

21

2017 state court order granting summary judgment against the Chos. (See ECF No. 61.) On

22

August 15,201 /, the court denied plaintiffs’ motion without prejudice, as procedurally defective.

23

(See ECF No. 70.) The court also ordered plaintiffs to show cause why this case should not be

24

dismissed due to lack of subject matter jurisdiction. (Id at 5.) On August 22, 2017, plaintiffs

25

moved for reconsideration of the order and order to show cause. (ECF No. 79.)

26

On August 23, 2017, all of the pending motions were heard before the undersigned. (ECF

27

No. 80.) During the hearing, plaintiffs admitted that they have vacated the property at 681

28

Tuscany Court, as a result of the state court unlawful detainer judgment. (Solano Cty. Super. Ct.
3

1

FCM154163. ) Speaking on behalf of plaintiffs, Kyu Hwang Cho asserted that, if granted leave

2

to amend theii complaint, plaintiffs can state claims under federal question subject matter

3

jurisdiction.

4

For the foregoing reasons, the undersigned recommends defendants’ motions to dismiss

5

be GRANTED; plaintiffs’ complaint be DISMISSED WITHOUT LEAVE TO AMEND; and

6

plaintiffs’ remaining motions be DENIED AS MOOT.

7

II.

8

LEGAL STANDARDS
Fedeial Rule of Civil Procedure 12(b)(1) allows a defendant to raise die defense, by

9

motion, that the court lacks jurisdiction over the subject matter of an entire action or of specific

10

claims alleged in the action. A federal court has an independent duty to assess whether federal

11

subject matter jurisdiction exists, whether or not the parties raise the issue. See United Investors

12

Life Ins. Co. v, Waddell & Reed Inc., 360 F.3d 960,967 (9th Cir. 2004) (stating that “the district

13

couit had a duty to establish subject matter jurisdiction over the removed action sua sponte,

14

whether the parties raised the issue or not”); accord Rains v. Criterion Sys., Inc.. 80 F.3d 339, 342

15

(9th Cii. 1996). The court must sua sponte dismiss the case if, at any time, it determines that it

16

lacks subject matter jurisdiction. Fed. R. Civ. P. 12(h)(3).

17

A motion to dismiss brought pursuant to Federal Rule of Civil Procedure 12(b)(6)

IS

challenges the sufficiency of the pleadings set forth in the complaint. Vega v, JPMorgan Chase

19

Bank, N.A., 654 F. Supp. 2d 1104, 1109 (E.D. Cal. 2009). Under the “notice pleading” standard

20

of the Federal Rules of Civil Procedure, a plaintiff's complaint must provide, in part, a “short and

21

plain statement” ofplaintifFs claims showing entitlement to relief. Fed. R. Civ. P. 8(a)(2); see

22

also Paulsen v. CNF, Inc., 559 F.3d 1061, 1071 (9th Cir. 2009). “To survive a motion to dismiss,

23

a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that

24

is plausible on its face.’” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (citing Bell Ad. Com v.

25

Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the plaintiff pleads

26

factual content that allows the court to draw the reasonable inference that the defendant is liable

27

for the misconduct alleged.” IcL

28

till
4

l

l

1

In considering a motion to dismiss for failure to state a claim, the court accepts all of the

2

well-pled factual allegations in the complaint as true and construes them in the light most

3

favorable to the plaintiff. Coirie v. Caterpillar, Inc.. 503 F.3d 974, 977 (9th Cir. 2007).

4

is “not, however, required to accept as true conclusory allegations that are contradicted by

5

documents tefeired to in the complaint, and [the court does] not necessarily assume the truth of

6

legal conclusions merely because they are cast in the form of factual allegations.” Paulsen. 559

7

F.3d at 1071.

8

in.

9

11
.

DISCUSSION
A.

1.0

The court

Jurisdictional Threshold

The federal courts are courts of limited jurisdiction. See U.S. Const, art. HI, § 2, cl. 1. In
the absence of a basis for federal jurisdiction, plaintiffs3 claims cannot proceed in this venue.

12

1.

Standing

13

“Lack of standing deprives this court of Article m jurisdiction.” Ctr. for Biological

14

Diversity v. Mattis, No. 15-15695, 2017 WL 3585638, at *6 (9th Cir. Aug. 21, 2017) (citing Steel

15

Co. v. Citizens for a Better Env3t, 523 U.S. 83, 103-04 (1998)). Because the question of standing

16

is a threshold jurisdictional issue, federal courts have a duty to examine it. D3Lil v. Best Western

17

Encina Lodge & Suites. 538 F.3d 1031,1035 (9th Cir. 2008).

18

Plaintiffs have the burden of establishing Article IE standing. Colwell v. Dep3t of Health

19

and Human Sen's.. 558 F.3d 1112, 1121 (9th Cir.2009). To meet that burden, the}' “must

20

establish the irreducible constitutional minimum of standing,3 consistingof three elements."

21

injuiy in fact, causation, and a likelihood that a favorable decision will redress the plaintiff’s

22

alleged injury.” Lopez v. Candaele. 630 F.3d 775, 785 (9th Cir. 2010) (quoting Lujan v.

23

Defenders of Wildlife, 504 U.S. 555, 560-61 (1992)). To establish an injury in fact, they must

24

show that they have suffered “an invasion of a legally protected interest which is (a) concrete and

25

particularized, and (b) actual or imminent, not conjectural or hypothetical.” Lujan. 504 U.S. at

26

560.

27
28

Generally, “[a] person who is not a party to a contract does not have standing either to
seek its enforcement or to bring tort claims based on the contractual relationship.” Ambers v.
5
!

1

Wells Fargo Bank. N.A., 2014 WL 883752, at *4 (N.D. Cal. Mai-. 3, 2014) (citing Mega Life &

2

Health Ins. Co. v.Super. Ct„ 172 Cal. App. 4th 1522, 1528-32 (Cal. Ct. App. 2009)). As a result,

3

courts have found that persons who are not parties to mortgage loans lack standing to bring

4

foreclosure related claims such as: civil RICO claims, negligent misrepresentation, fraud,

5

wrongful foreclosures, quiet title, and injunctive relief. See Green v. Central Mortgage Co 2015

6

WL 5157479, at M (N.D. Cal. Sept. 2, 2015) (collecting case authorities).

7

Here, Jung Hyun Cho is the only plaintiff listed as a borrower on die mortgages at the

8

heart of plaintiffs’ complaint. (See ECF No. 33 at 5-21, 23-33.) Plaintiffs Kyu Hwang Cho, E un

9

Sook Cho, and Eui Hyun Cho are not parties to these mortgages. (Id) Therefore, at a minimum,

10

Kyu Hwang Cho, Eun Sook Cho, and Eui Hyun Cho lack standing to bring claims two through

11

six, and eight through thirteen—RICO violations; HAMP violations; FCA violations; violation of

12

California Civil Code § 2923.7; wrongful foreclosure; unfair- business practices; breach of

13

contiact, bieach of fiduciar y duty; fraud; undue influence; and negligence—because each relates

14

to the servicing of the mortgages in question. Green. 2015 WL 5157479, at *4.

15

2.

Jurisdiction Explicitly Deprived by Congress

16

One of plaintiffs’ central allegations is that the “Solano County Tax Assessor!]

17

outrageously overrated Plaintiffs property tax to almost double of that for the veiy next door

18

neighbor . . . [intentionally or negligently ... [causing] a huge blow to the loan modification

19

process so as to lead up to a wrongful foreclosure.” (ECF No. 1 at 19.)

20

Congress has explicitly provided that federal courts generally lack jurisdiction over local

21

tax assessments, with very few exceptions. See 28 U.S.C. § 1341 (“The district courts shall not

22

enjoin, suspend or restrain the assessment, levy or collection of any tax under State law where a

23

plain, speedy and efficient remedy may be had in the courts of such State.”). The Ninth Circuit

24

has explained:

25
26
27
28

By its plain language, [28 U.S.C. § 1341] deprives federal district
courts of subject matter jurisdiction over actions for injunctive
relief from state taxation schemes. [. . .] Actions for declarator)'
relief present similar considerations as claims for injunctive relief,
and therefore are also precluded from review by federal courts. [.. j
Further, federal courts have generally dismissed cases in which
plaintiffs have sought both injunctive or declaratory relief and a
6

1

refund or damages.

2

Marvin F. Poer & Co. v. Ctys. of Alameda. 725 F.2d 1234,1235 (9th Cir. 1984) (citations

3

omitted).

4

Moreover, plaintiffs cannot challenge the assessment of a local tax in federal court unless

5

they first demonstrate that they do not have a “plain, speedy and efficient remedy” in state court.

6

28 U.S.C. § 1341; see also Mandel v. Hutchinson. 494 F.2d 364, 367 (9th Cir. 1974) (“For a state

7

remedy to be ‘adequate’ under 28 U.S.C. § 1341 it need not necessarily be ‘the best remedy

8

available or even equal to or better than the remedy which might be available in the federal

9

courts.”’).

10

Here plaintiffs have not surmounted the high bar- set by 28 U.S.C. § 1341 to establish

11

federal jurisdiction over this claim. First, plaintiffs’ allegations regarding Solano County’s tax

12

assessment are conclusory and vague. Notwithstanding the assertions that other properties have

13

received lower tax assessments (ECF No. 1 at 19), plaintiffs have failed to allege sufficient facts

14

under any valid legal theory to explain how their tax was improperly assessed. Second, while

15

plaintiffs allege that “numerous review requests were declined unfairly,” they have failed to

16

explain how the available state remedy is not plain, speedy, and efficient. (IdJ Nor have

17

plaintiffs indicated whether they exhausted administrative and judicial remedies on the state level.

IS

Thus, the undersigned finds that this court lacks jurisdiction over plaintiffs’ claim that Solano

19

County improperly assessed their property tax.

20

Subject Matter Jurisdiction

21

A federal district court generally has original jurisdiction over a civil action when: (1) a

22

federal question is presented in an action “arising under the Constitution, laws, or treaties of the

23

United States or (2) there is complete diversity of citizenship and the amount in controversy

24

exceeds $75,000. See 28 U.S.C. §§ 1331,1332(a).

25

26
27
28

In the August 15, 2017 order and order to show cause, the court put plaintiffs on notice
that then complaint fails to establish subject matter jurisdiction:
Here, plaintiffs’ sole listed basis for subject matter jurisdiction is
diversity of citizenship. (ECF No 61 at 2-3.) However, plaintiffs’
complaint lacks diversity jurisdiction on its face because all
7

'T

1

plaintiffs and two named defendants are citizens of the State of
California. See 28 U.S.C. § 1332; In re Dieimarc Coi-p 549 F.3d
at 1234. Moreover, plaintiffs appear- to have failed to state any
claim that would justify federal question jurisdiction. 28 U.S.C. §
1331.

2
3
4
5

(ECFNo. 70 at 5.)
Because the complaint lacks complete diversity between all plaintiffs and all defendants,

6

plaintiffs have failed to establish diversity subject matter jurisdiction for their state law claims

7

five, six, and eight through eighteen: violation of California Civil Code § 2923.7; wrongful

8

foreclosure; unfair business practices: breach of contract; breach of fiduciary duty; fraud; undue

9

influence, negligence; negligent infliction of emotional distress: intentional infliction of

10

emotional distress; invasion of privacy; vandalism/theft; and trespass. See 28 U.S.C. § 1332(a).

11

In the absence of complete diversity, a federal court may assert supplemental jurisdiction

12

over a plaintiff’s related state law claims, provided that federal question jurisdiction has been

13

established. See 28 U.S.C. § 1367. Supplemental jurisdiction is not available here because, for

14

the reasons explained below, the undersigned finds that plaintiffs have failed to establish federal

15

question jurisdiction on the face of their complaint.

16

B.

17

The court must construe a pro se pleading liberally to determine if it states a claim and,

Sufficiency of Federal Claims

18

prior to dismissal, tell a plaintiff of deficiencies in his complaint and give plaintiff an opportunity

19

to cure them if it appears at all possible that the plaintiff can correct the defect. See Lopez v.

20

Smifr, 203 F.3d 1122,1130-31 (9th Cir. 2000) (en banc); see also Hebbe v, Pliler. 627 F.3d 338,

21

342 & n.7 (9th Cir. 2010) (stating that courts continue to construe pro se filings liberally even

22

when evaluating them under the standard announced in IqbalV Liberally construing plaintiffs’

23

complaint, it appeal's to raise four claims under federal law.

24

1.

Civil Rights Claims under 42 U.S.C. § 1983

25

Plaintiffs allege that their “civil rights to be free from unequal treatment [i]n housing and

26

[their] civil liberties guaranteed to enjoy privacy and freedom from unreasonable searches and/or

27

trespassing of their home have been severely violated by a multitude of RICO entej-prises formed

28

by Defendants comprised of5 BOA, Deutsche, SPS, and WMC. (ECF No 1. At 18.)
8

1

To the extent that plaintiffs allege that then- civil rights were violated, they appear to bring

2

claims under 42 U.S.C. § 1983 based upon alleged racial discrimination in violation of either the

3

Fifth or Fourteenth Amendment and alleged unlawful search and seizure in violation of the

4

Fourth Amendment.

5

“To state a claim for relief under section 1983, the Plaintiffs must plead two essential

6

elements: 1) that the Defendants acted under color of state law; and 2) that the Defendants caused

7

them to be deprived of a right secured by the Constitution and laws of the United States.”

8

Johnson v. Knowles, 113 F.3d 1114, 1117 (9th Or. 1997). The first element requires that

9

defendants have “exercised power ‘possessed by virtue of state law and made possible only

10

because [they are] clothed with the authority of state law’ ... [or that defendants’] conduct

11

satisfies the state-action requirement of the Fourteenth Amendment.” West v. Atkins 487 U.S,

12

42, 49 (U.S. 1988) (citations omitted).

13

“While generally not applicable to private parties, a § 1983 action can lie against a private

14

party when ‘he is a willful participant in joint action with the State or its agents. ’” Klrtlev v.

15

Rainey, 326 F.3d 1088, 1092 (9th Cir. 2003). Courts “recognize at least four different criteria, or j

16

tests, used to identify state action: ‘(1) public function; (2) joint action; (3) governmental

17

compulsion or coercion; and (4) governmental nexus.’” Id.

18

Importantly, plaintiffs only bring their § 1983 claims against defendants BOA, Deutsche,

19

SPS, and WMC, each of which is a private party. While the mortgages in question were certainly

20

regulated by state and federal law, issuing and servicing mortgage loans does not constitute state

21

action. In the normal course of business, a mortgage is a contract between private par-ties. There

22

is nothing about this pr ocess to suggest that banks and mortgage companies are willful

23

participants in joint action with the state every time they issue or service mortgage loans.

24

Further, plaintiffs have failed to allege any facts to suggest that there were unique

25

circumstances that demonstrate that BOA, Deutsche, SPS, or WMC was acting under the color of

26

state law when issuing or servicing the mortgages in question. The only traditional state actor-

27

named as a defendant in this matter is Solano County, which is alleged to have improperly

28

assessed property taxes on the property in question. (See ECF No. 1 at 17-18.) Plaintiffs allege
9

|

that the actions by Solano County created a “major stumbling block” for plaintiffs’ attempts at
2

loan modification, and that the “County Tax Assessor unfairly adopted a redlining practice

3

mdividualiy targeted at Plaintiff; in cooperation with SPS” (ECFNo. 1 at 18.) However, this

4

statement is conclusory and unsupported by any factual allegations that demonstrate cooperation

5

between Solano County and SPS. The court need not accept such bald assertions as true. See

6

Paulsen, 559 F.3d at 1071.

7

Therefore, plaintiffs have failed to state a claim under 42 U.S.C. § 1983 because they have

8

failed to allege any facts that demonstrate that defendants BOA, Deutsche, SPS, or WMC acted

9

under color of state law.

10
11

2.

RICO Claim

Plaintiffs claim that defendants were involved in a RICO enterprise to violate their civil

12

rights. (ECF No 1. At 18.) “To prevail under RICO, a plaintiff must establish a ‘pattern of

13

criminal activity.’ [. ..] At a minimum, a ‘pattern’ requires that the predicate criminal acts be

14

‘related’ and ‘continuous.’” Allwaste. Inc, v. Hecht. 65 F.3d 1523, 1527 (9th dr. 1995) (citing

15

aUnc, v. Northwestern Bell Telephone Co.. 492 U.S. 229, 239 (1989)). RICO violations are

16

eithei a pattern of racketeering activity or the collection of an unlawful debt, or a conspiracy to

17

commit either. See 18 U.S.C. §1962; H.I. Inc, 492 U.S. at 232. A pattern of racketeering activity

18

requites at least two acts committed within 10 years of each other that are related, along with a

19

threat of continuing activity. See 18 U.S.C § 1961(5); H.J. Inc. 492 U.S. at 239.

20

Here plaintiffs continually refer to defendants’ activities as a “RICO enterprise” (See ECF

21

No. 1 at 2, 4, 18), but they fail to identify any conduct that would constitute a RICO violation.

22

Plaintiffs admit that Jung Hyun Cho obtained two legitimate loans in 20043 (id at 2), but they

23

allege that the loans were placed into a racially bracketed dead-end mortgage securitization trust

24

in a fraudulent scheme to permanently block better terms for qualified but troubled homeowners

25

26
27

Plaintiffs do allege that these loans were “predatory subprime loans.” (ECF No. 1 at 1.)
However, plaintiffs do not provide any factual assertions to suggest that the loans were illicitly
issued from the onset. For example, plaintiffs do not challenge the validity of either mortgage
instrument that was recorded in Solano County. Rather, the focus of plaintiffs’ complainUs on
what occurred to these loans after they were issued, (See Id.)
10

1

to seek long-term predatory profit.'3 (Id. at 4.) These conclusory assertions are not supported by

2

factual allegations that demonstrate that defendants were engaged in a pattern of racketeering

3

activity or that the loans were illegal. The court need not accept such bald assertions as true. See

4

Paulsen. 559F.3d at 1071.

5

Therefore, plaintiffs have failed to state a claim under RICO because they have failed to

6

sufficiently allege that defendants were engaged in conduct that violates RICO. See 18 U.S.C. §

7

1962. Nor could plaintiffs state a claim under RICO, if granted leave to amend, because the

8

servicing of legitimate mortgage loans does not constitute a pattern of racketeering activity.

9
10

3.

HAMP Claim

Plaintiffs also appear to bring a claim against defendants for alleged violations of HAMP.

11

Allegedly. SPS has used a bait-and-switch gimmick to trick Plaintiff into a more affordable

12

modification package under HAMP in order to outbid state and federal injunctions under

13

HAMP.33 (SeeECF No. 1 at 2.)

14
15
16

HAMP was created during the recent subprime mortgage crisis, in an attempt to
encourage loan modifications to underwater mortgages:

19

In March 2009, the United States Department of Treasury
announced the details of the Home Affordable Modification
Program as part of the Making Home Affordable Program. Under
HAMP, individual loan servicers voluntarily enter into contracts
with Fannie Mae, acting as the financial agent of the United States,
to perform loan modification services in exchange for certain
financial incentives.

20

Newell y. Wells Fargo Bank, N.A., 2012 WL 27783, at *1 (N.D. Cal. Jan. 5, 2012). As explained

21

above, plaintiffs Kyu Hwang Cho, Eun Sook Cho, and Eui Hyun Cho each lack standing to bring

22

claims related to the servicing of the mortgage loans in this matter, such as a claim under HAMP.

23

What is more, HAMP does not include a private right of action for mortgagees, who may be

24

incidental beneficiaries of a HAMP agreement between a financial institution and the federal

25

government. Id, at *6. Thus, plaintiff Jung Hyun Cho also lacks standing under HAMP, as an

26

incidental beneficiary to any HAMP agreement that may exist between defendants and the

27

government. As a result, plaintiffs3 HAMP claim must be dismissed because plaintiffs lack

28

standing to bring a private right of action under HAMP. Id.

17
18

11

I)
I

1

4.

2

FCA Claim

According to plaintiffs, the “FERA [Fraud Enforcement and Recovery Act] of 2009 may

3

hold WMC and [Deutsche] liable for this mortgage fraud committed against Plaintiff” (ECF No.

4

1 at 7.) By referencing the FERA, it appeal's that plaintiffs are claiming that WMC and Deutsche

5

committed mortgage fraud in violation of 31 U.S.C. § 3729, et seq, also known as the FCA.4

6

The purpose of the FCA is “to discourage fraud against the
government.” [. . .] The FCA imposes civil liability on any person
who knowingly uses a “false record or statement to get a false or
fraudulent claim paid or approved by the Government,” [. . .] and
any person who conspires to defraud the Government by getting a
false or fraudulent claim allowed or paid.” [. . .] To encourage the
disclosuie of potential fraud, under the qui tarn provisions of the
FCA, relators may “bring a civil action for a violation of [§ ]3729
for the person and for the United States Government.”

7
8
9
10
11

Cell,Therapeutics, Inc, v. Lash Grp.. Inc., 586 F.3d 1204,1205-06 (9th Cir. 2009), as amended

12

on denial of reh:,g and rehlgen banc (Jan. 6, 2010) (citations omitted). Thus, under the FCA, a

13

private citizen may bring an action on behalf of the government as a whistle blower. 31 U.S.C. §

14

3730(b).

15

Here, plaintiffs do not bring any action on behalf of the government. Rather, they allege

16

that defendants defrauded plaintiffs. Therefore, plaintiffs have failed to state a claim under the

17

FCA. See 31 U.S.C. § 3730(b).

18

IV.

19

CONCLUSION
Based on the forgoing, there are numerous grounds to dismiss plaintiffs’ complaint. Three

20

out of the four plaintiffs lack standing to raise any claims related to the mortgage loans in

21

question. This court lacks jurisdiction to review a local tax assessed by Solano County.

22

Furthermore, plaintiffs lack complete diversity with defendants and they-have failed to state a

23

claim under federal law on the face of their complaint.

24

The court has carefully considered whether plaintiffs should be provided with an

25

opportunity to amend their complaint, especially in light of them pro se status. The court

26
27
28

The FERA of 2009 amended and strengthened the FCA. See 31 U.S.C. § 3729, et seq; Elspeth
England, The Government Upgrades the False Claims Act: Implications for Federal Construction
Contracting. Constr. Law., Winter 2012
12

1

concludes that further leave to amend would be futile. Plaintiffs’ only response to the court’s

2

order to show cause, regarding a lack of subject matter jurisdiction (ECF No. 70) , was to assert at
the hearing that they could state valid federal claims, if granted leave to amend. They did not

3
4

asset t that they could cure the lack of diversity, however. As such, whether to grant leave to

5

amend rests upon whether plaintiffs could plead a plausible federal claim in an amended

6

complaint. Yet, there are no set of facts that plaintiffs could allege, consistent with their current

7

allegations, in support of federal claims under 42 U.S.C. § 1983, RICO, HAMP, or the FCA that

8

would entitle them to relief. See Cahill v. Liberty Mut. Ins. Co.. 80 F.3d 336, 337-39 (9th Cir.

9

1996). As explained, plaintiffs cannot allege that BOA, Deutsche, SPS, and WMC were acting

10

under the color of state law when they serviced legitimate mortgage loans. Nor can they provide

11

any allegations consistent with then current factual allegations that demonstrate defendants were

12

involved in a pattern of racketeering or collecting on an illegal loan. Moreover, plaintiffs may not

13

bring claims on their own behalf under HAMP or the FCA.5

14

Accordingly, IT IS HEREBY RECOMMENDED that:

15

1.

Defendants’ motions to dismiss (ECF Nos. 17, 19, 23, 30, 32) be GRANTED.

16

2.

Plaintiffs’ complaint (ECF No. 1) be DISMISSED, WITHOUT LEAVE TO

17

AMEND, for lack of subject matter jurisdiction, but without prejudice as to the

18

state law claims, so that plaintiffs may pursue those claims in state court if

19

appropriate.

20

3.

Defendants’ motion for more definite statement (ECF No. 22), as well as

21

Plaintiffs motion for judgment on the pleadings (ECF No. 43), motion to strike

22

(ECF No. 44), motion for preliminary injunction (ECF No. 47), and motion for

23

reconsideration of order and order to show cause (ECF No. 79) be DENIED AS

24

MOOT.

25

4.

The Clerk of Court be directed to close this case.

26
27
28

5 The court need not consider plaintiffs’ pending motions (ECF No. 43, 44, 47, 79) because they
are moot with the dismissal of this action and with plaintiffs’ admission that they have already
vacated the property in question, pursuant to the state court action plaintiffs had sought to enjoin.
13

1

These findings and recommendations are submitted to the United States District Judge

2

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within fourteen days

3

after being served with these findings and recommendations, any party may file written

4

objections with the court and serve a copy on all parties. Such a document should be captioned

5

“Objections to Magistrate Judge’s Findings and Recommendations.” Failure to file objections

6

within the specified time may waive the right to appeal the District Court’s order. Martinez v.

7

Ylst, 951 F.2d 1153 (9th Cir. 1991).

8

Dated: September 6, 2017

9

S7

n

<

'T'\ /

/
CAROLYN K. DELANEY
UNITED STATES MAGISTRATE JUDGE

10
11
12

14/ps.i 7-1073.Cho.F<S:R MTD

13
1.4
15
16
17
18
19
20
21
22
23
24
25
26
27
28
14

j

Mc«a<^MS^!)hV0rAOIr:Crted_C^'LeCyiie'7Pdesk^,Caed'uscourtS'^ov To:CourtMaiI@localhost.localdomain

NOTE TO PUBLIC ACCESS USERS**'* There is no charge for viewing opinions.
U.S. District Court
Eastern District of California. - Live System
Notice of Electronic Filing
The following transaction was entered on 9/6/2017 at 11:25 AM PDT and filed on 9/6/2017
Case Name:
(PS) Cho et al v. Select Portfolio Servicing, Inc. el al
Case Number:
2:J,7-cy-01073-KTM-CKD
Filer:
Document Number: 84
Do elect Text *
by MaSistrate Judge Carolyn K. Delaney on

ggfljaSSr

H$ir^
2:17-cv-01073-KJM-CKD Notice has been electronically mailed to:
Christine E. Howson &nbsp &nbsp christine.howson@wolffirm.com. abigail.hernandez@wolffirm com
iryna. brown @wolffum.com.. marla.fortner@wolffimi.com, may.herrera@woIfFimi.com
Jamie Lauien Ackerman &nbsp &nbsp Jamie@JLAckemianlaw.com
JoelC. Spann &nbsp &nbsp jcs@severson.com, efiling@severson.com, mam@severson.com
Joseph A Aguilar &nbsp &nbsp jaguilar@archernorris.com, aalter@archernorris.com,
ebarhani@archemoiTis.com. jriley@archemorris.com
Raymond Bangle , IH &nbsp &nbsp rbangle@mathenysears.com, aperusse@mathenysears.com
2jl7-cv-01073-KJM-CKD Electronically filed documents must be served conventionally by the filer
Eui Hyun Cho
5415 College Oak Dr.
Apt. 110
Sacramento, CA 95841
Eun Sook Cho
681 Tuscany Court
Fairfield, CA 94534
Jung Hyun Cho- PREFILING ORDER
681 Tuscany Court
Fairfield, CA 94534
Kyu Hwang Cho

Faiifield, CA 94534
The following documents) are associated with this transaction:

Additional material
from this filing is
available in the
Clerk's Office.

